No.

 

United States Court of Appeals for the Third Circuit
C.A. No.18-2825

United States District Court
for the District of New Jersey,
No. 2:14-cv-04268 (KM)
IN THE SUPREME COURT OF THE UNITED STATES

DARIUS MURPHY,
Petitioner,

vs.
ADMINISTRATOR EAST JERSEY STATE PRISON,

ATTORNEY GENERAL NEW JERSEY,
Respondents.

 

CERTIFICATE OF SERVICE

The undersigned hereby certifies that on this date
was placed, in the U.S. mail, with proper first class
postage affixed thereto, a true and correct copy of the
‘Petition for Writ of Certiorari and Petitioner’s Motion
for Leave to Proceed In Forma Pauperis, in an envelope
addressed as follows: Matthew E. Hanley, Special
Deputy Attorney General/Acting Assistant Prosecutor,
Essex County Veterans Courthouse, 50 West Market
Street, Newark, New Jersey 07102, counsel to all

parties required to be served.

DATED: October 4, 2021 Respectfully submitted,

\y Ge

Mary Gibbons
